Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
 


As of March 31, 2010




                        




 
Foreword
This is the first in a projected series of quarterly progress and oversight reports on the U.S.
Government’s civilian assistance program in Pakistan. The report was requested by the U.S. Embassy in
Pakistan and is intended to inform stakeholders about progress achieved to date, issues encountered
during program implementation, and actions taken to address them.

This first report covers the period from October 15, 2009, when the Enhanced Partnership with
Pakistan Act of 2009 became law, through March 31, 2010. Since no appropriations authorized under
the Act have yet been received, U.S. Government departments and agencies in Pakistan have been
focusing on developing strategies to accomplish the Act’s objectives and using existing programs and
sources of funding to support these strategies.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan, the results of oversight work, and other sources of information. The
program oversight results are taken from audits, investigations, and inspections performed by the
Offices of Inspector General for USAID, the Department of State, and the Department of Defense, as
well as the U.S. Government Accountability Office.




                      /s/                             /
The Honorable Donald A. Gambatesa
Inspector General
U.S. Agency for International Development



                    /s/                               /
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



                    /s/                               /
The Honorable Gordon S. Heddell
Inspector General
Department of Defense



 




 
Table of Contents
Abbreviations...................................................................................................................................................................... 1

Executive Summary ........................................................................................................................................................... 2

Background.......................................................................................................................................................................... 4

Program Status .................................................................................................................................................................10

    High Impact, High Visibility Infrastructure Programs .........................................................................................11

    Focused Humanitarian and Social Services: Immediate Post-Crisis and Humanitarian Assistance .........13

        Oversight Results ...................................................................................................................................................15

    Focused Humanitarian and Social Services: Increased Access to and Quality of Education and Health
    Services..........................................................................................................................................................................16

        Oversight Results ...................................................................................................................................................20

    Government Capacity Improvement: Improved National and Local Governance .....................................20

    Government Capacity Development: Improved Security and Legal Institutions.........................................23

        Oversight Results ...................................................................................................................................................24

    Economic Growth.......................................................................................................................................................26

    Assistance to Pakistani Institutions .........................................................................................................................27

    Risks, Implementation Problems, and Mitigation Strategies..............................................................................29

    Staffing............................................................................................................................................................................31

Oversight Status...............................................................................................................................................................34

    USAID Office of Inspector General........................................................................................................................34

        Final Audit Reports ................................................................................................................................................35

        Investigations Results.............................................................................................................................................35

        Oversight Activities Underway ...........................................................................................................................35

        Planned Oversight ..................................................................................................................................................36

    Department of State Office of Inspector General ..............................................................................................38


 
       Final Audits...............................................................................................................................................................38

       Oversight Activities Underway ...........................................................................................................................38

       Planned Oversight ..................................................................................................................................................38

    Department of Defense Office of Inspector General ........................................................................................39

    Government Accountability Office.........................................................................................................................39

       Work Completed Since October 15, 2009 .....................................................................................................39

       Work Underway for FY 2010 .............................................................................................................................40

       Work Planned for the Remainder of FY 2010 ................................................................................................40




 
Abbreviations
 

CEO        Chief executive officer

COR        Contracting officer’s representative

FATA       Federally Administered Tribal Areas

GAO        Government Accountability Office

HIV/AIDS   Human immunodeficiency virus/acquired immunodeficiency syndrome

IDP        Internally displaced persons

INL/A      International Narcotics and Law Enforcement/Office of Aviation

NAB        National Accountability Bureau 

NAS        Narcotics Affairs Section

NGO        Nongovernmental organization

NWFP       North-West Frontier Province

OIG        Office of Inspector General

Pre-STEP   Pre-Service Teacher Education Program

USAID      U.S. Agency for International Development




                                                                             1
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009 authorizes democratic, economic, and
development assistance to Pakistan in the amount of $1.5 billion per year from FY 2010 to FY 2014, for
a total of $7.5 billion. The Pakistan assistance strategy report submitted by the Department of State
pursuant to the Act describes three key objectives of this long-term development assistance program:

•   Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
    needs.

•   Help the Pakistani Government address basic needs and provide improved economic opportunities
    in areas most vulnerable to extremism.

•   Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

While awaiting the appropriations authorized by the Act, a great deal of effort has been devoted to
strategy development, design, and negotiation of new grants and contracts. The U.S. departments and
agencies working in Pakistan also continue to implement existing programs and make adjustments to
align their programs more closely with new strategies prepared since passage of the Act in October
2009.

According to the U.S. Embassy in Pakistan, $1.8 billion in FY 2009 and FY 2010 funds has been obligated
as of March 31, 2010. No expenditure information relating to these obligations is yet available.

Several U.S. departments and agencies are working to carry out the assistance programs authorized in
Title I of the Act. The U.S. Agency for International Development (USAID) the U.S. Department of
Agriculture, and the U.S. Department of Commerce are, or will be, implementing a preponderance of
the programs in the areas of high impact infrastructure programs, post-crisis humanitarian assistance,
education and health services, and governance, while the U.S. Embassy Narcotics Affairs Section is taking
the lead in the area of improved security and legal institutions.

The U.S. departments and agencies working in Pakistan, with their respective oversight organizations,
have identified a number of risks and implementation issues that could threaten the success of the U.S.
Government’s assistance program in Pakistan. The most important risks and implementation issues
involve the need to sustain political support for the principles that underlie the assistance program,
security threats that make it hard to implement and monitor assistance programs, and limited Pakistani
Government institutional capacity. While strategies for addressing these issues have been developed
and are being implemented, all of these issues demand sustained attention and monitoring.

To help ensure that U.S. Government funds are protected against waste and diversion, the oversight
organizations involved in monitoring U.S. Government assistance programs in Pakistan are expanding



                                                                                                          2
audit, inspections, and investigations programs and partnering with Pakistani institutions including the
Office of the Auditor General, the National Accountability Bureau, and Pakistani public accounting firms.

During the period covered by this report—from the passage of the Act in October 2009 through March
31, 2010—the USAID Office of Inspector General (OIG) issued one performance audit and transmitted
one financial audit to USAID for action. The performance audit concluded that a USAID program for
building government and civil society capacity in the Federally Administered Tribal Areas (FATA) had
accomplished relatively little in terms of capacity building, although training had been delivered and initial
steps had been taken to automate FATA institutions. The financial audit, covering $1.9 million in USAID
funds managed by a Pakistani non-governmental organization (NGO), identified $335,172 in questioned
costs and $41,770 in required cost sharing contributions that were either not made or were classified as
ineligible questioned costs. The USAID OIG also made a criminal referral to the Department of Justice
concerning evidence of illegal acts by employees of a USAID contractor and subcontractor.

During the same period, the Department of State OIG issued two performance audits that covered
different aspects of counternarcotics programs in Pakistan. One of these audits, while focusing mainly
on counternarcotics programs in Afghanistan, identified a need for more coordination and information
sharing between the U.S. embassies in Afghanistan and Pakistan on counternarcotics matters.
Additionally, the State OIG identified the major impediment to obtaining poppy free status as the
breakdown in security that has negatively affected road projects, alternative crop programs, and poppy
eradication, especially in FATA where most poppies are cultivated. The second audit, focusing on a
program that supports a Pakistani Ministry of Interior Air Wing, concluded that the Air Wing program
effectively provides aviation support for counternarcotics and other missions. Moreover, the program
contractor has met safety and readiness requirements. However, a number of contract management
and oversight issues need to be resolved.

Several additional audits, inspections, and evaluations are planned or underway. The USAID OIG has
three performance audits underway and plans to undertake four more performance audits during the
remainder of FY 2010. The USAID OIG also expects to perform desk reviews or other quality control
procedures for financial audits of contractors and grantees. The State OIG has one audit and one
inspection program in progress and expects to carry out two more performance audits and one
program evaluation during the rest of FY 2010. The Department of Defense OIG plans one Pakistan
assignment during the rest of FY 2010. Finally, the Government Accountability Office has three
assignments currently in progress and expects to undertake two more assignments in FY 2010.




                                                                                                            3
Background
In recognition of the importance of the bilateral relationship between the United States and Pakistan, the
Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73, 123 Stat. 2060), a bipartisan bill
sponsored in the U.S. Senate by Senators John Kerry, Richard Lugar, and 10 others, was signed into law
by President Barack Obama on October 15, 2009. The Act articulates the U.S. intention to work with
the Government of Pakistan to build mutual trust and confidence by actively and consistently pursuing a
sustained, long-term, multifaceted relationship between the two countries, devoted to strengthening the
mutual security, stability, and prosperity of both countries. The Act authorizes appropriations of $1.5
billion per year for fiscal years (FYs) 2010 through 2014, for a total of $7.5 billion to support programs
described in Title I of the Act.

Title I of the Act authorizes democratic, economic, and development assistance to:

•   Support the consolidation of democratic institutions.

•   Support the expansion of rule of law, build the capacity of government institutions, and promote
    respect for internationally recognized human rights.

•   Promote economic freedoms and sustainable economic development.

•   Support investment in people, including those displaced in on-going counterinsurgency operations.

•   Strengthen public diplomacy.

Title II authorizes security assistance for:

•   International military education and training.

•   A foreign military financing program.

•   An exchange program between Pakistani military and civilian personnel and personnel in other
    countries to foster greater mutual respect for and understanding of the principle of civilian rule of
    the military.

Title III establishes strategy, accountability, monitoring, and other provisions. Title III requires:

•   A report on the strategy to be used to carry out the democratic, economic, and development
    assistance programs authorized by Title I.

•   A comprehensive regional security strategy directed toward eliminating terrorist threats and closing
    safe havens in Pakistan.

                                                                                                            4
•   A security-related assistance plan that describes plans for carrying out programs under Title II.

•   A semiannual monitoring report that will include:

    o    Reporting on the status of democratic, economic, and development programs authorized under
         Title I.

    o    An evaluation of efforts by the Government of Pakistan to defeat terrorist groups, eliminate safe
         havens, cease all support for extremist and terrorist groups, prevent attacks into neighboring
         countries, increase oversight over madrassas, and reinforce antiterrorism financing efforts.

    o    A description of Pakistan’s efforts to prevent nuclear proliferation.

    o    An assessment of the degree to which the Government of Pakistan exercises effective civilian
         control over the military.

The key provisions of the Act are presented in Table 1.

Table 1. Enhanced Partnership with Pakistan Act of 2009

Title I. Democratic, Economic,          Title II. Security Assistance          Title III. Strategy,
and Development Assistance                                                     Accountability, Monitoring, and
                                                                               Other Provisions
Title I authorizes five types of        Title II authorizes three types of     Title III requires the submission of a
programs.                               programs.                              number of strategy and monitoring
1. Consolidation of democratic          1. International military              reports:
institutions.                           education and training.                • A Pakistan assistance
• Support for efforts to strengthen     • It is the sense of Congress that a     strategy report describing the
  Pakistan’s institutions, including      substantial amount of the funds        principal objectives and specific
  the National Parliament.                appropriated for international         programs planned to carry out
• Voter education and civil society       military education and training        Title I of the Act (45 days after
  training.                               should be for courses in               enactment).
• Political party capacity building.      counterinsurgency and civil-         • A comprehensive regional
• Capacity strengthening for the          military relations.                    security strategy report
  civilian Government of Pakistan.      2. Foreign military financing            describing a comprehensive
2. Rule of law, government              program.                                 interagency regional security
capacity, and respect for               • Grant assistance is authorized         strategy to eliminate terrorist
human rights.                             under the Arms Export Control          threats and close safe havens in
• Establishment of frameworks that        Act to purchase defense articles,      Pakistan (180 days after
  promote government                      defense services, and military         enactment).
  transparency and criminalize            education and training for           • A security-related assistance
  corruption.                             Pakistan. A significant portion of     plan describing proposed uses of
• Police professionalization,             the amount made available to           security-related assistance (180
  including training regarding use of     carry out this subsection for a        days after enactment).
                                          fiscal year shall be for the         • Semi-annual monitoring

                                                                                                                   5
Title I. Democratic, Economic,          Title II. Security Assistance           Title III. Strategy,
and Development Assistance                                                      Accountability, Monitoring, and
                                                                                Other Provisions
  force, human rights, and                 purchase of defense articles,          reports describing assistance
  community policing.                      defense services, and military         provided under Title I including an
• Support for judicial and criminal        education and training for             assessment of the effectiveness of
  justice systems.                         activities relating to                 the assistance provided (every
• Legal and political reforms in the       counterinsurgency and                  180 days).
  FATA.                                    counterterrorism operations in       • A report by the Government
• Counternarcotics support.                Pakistan. It is the sense of           Accountability Office (GAO)
• Promotion of human rights.               Congress that a significant            including a review of the Pakistan
• Support for responsible, capable,        majority of funds should be used       assistance strategy report,
  and independent media.                   for such purposes, and that the        recommendations relating to any
3. Economic freedom and                    United States should facilitate        actions needed to improve the
economic development.                      reconstruction assistance,             efficiency and effectiveness of U.S.
• Investments in water resource            including through Pakistan’s           efforts to meet the objectives of
  management systems.                      military as appropriate, in areas      the Act, a detailed description of
                                           damaged by combat operations.          the expenditures made by
• Farm-to-market roads, systems to
                                        3. Exchange program between               Pakistan pursuant to grant
  prevent spoilage and waste, and
                                        Pakistani military and civilian           assistance under section 23 of the
  other small-scale infrastructure
                                        personnel and personnel in                Arms Export Control Act (22
  improvements.
                                        other countries.                          U.S.C. 2763; relating to the
• Investments in energy.
                                        • Exchange programs are                   Foreign Military Financing
• Employment generation.
                                           authorized between civilian and        program), and an assessment of
• Support for worker rights.
                                           military Pakistani personnel and       the impact of the assistance on
• Increased access to microfinance.
                                           personnel in NATO member               the security and stability of
• Expanded opportunities and               countries and other countries as       Pakistan (1 year after submission
  training for youth at risk of            determined by the Secretary of         of the Pakistan assistance strategy
  radicalization.                          State to foster mutual respect for     report).
4. Investment in people.                   and understanding of the principle   • A GAO report regarding
• Support for primary and                  of civilian rule of the military.      certifications that (i) the
  secondary education and               Assistance under Title II requires        Government of Pakistan is
  vocational and technical training.    certifications by the Secretary of        continuing to cooperate with the
• Higher education programs.            State, under the direction of the         United States in efforts to
• Public health programs.               President, that (i) the Government        dismantle supplier networks
• Capacity-building support for         of Pakistan is continuing to              relating to the acquisition of
  nongovernmental and civil society     cooperate with the United States in       nuclear weapons-related
  organizations.                        efforts to dismantle supplier             materials, (ii) the Government of
• Assistance to refugees and            networks relating to the acquisition      Pakistan has demonstrated a
  internally displaced persons and      of nuclear weapons-related                sustained commitment to and is
  long-term development programs        materials, (ii) the Government of         making significant efforts towards
  in high conflict regions.             Pakistan has demonstrated a               combating terrorist groups, and
5. Public diplomacy.                    sustained commitment to and is            (iii) the security forces of Pakistan
• Opportunities for civil society and   making significant efforts towards        are not materially and
  other leaders to speak out against    combating terrorist groups, and (iii)     substantially subverting the
  militancy and violence.               the security forces of Pakistan are       political or judicial processes of
• Expanded exchange activities to       not materially and substantially          Pakistan (120 days after
  promote mutual understanding          subverting the political or judicial      certifications are made).


                                                                                                                     6
Title I. Democratic, Economic,            Title II. Security Assistance         Title III. Strategy,
and Development Assistance                                                      Accountability, Monitoring, and
                                                                                Other Provisions
  and interfaith dialogue.                processes of Pakistan. In addition,
Title I encourages the President, as      the Act provides that direct cash
appropriate, to utilize Pakistani firms   payments may only be provided or
and nongovernmental organizations         made to civilian authorities of a
and to work with local leaders to         civilian government of Pakistan.
provide assistance. It also states
that assistance funds shall be utilized
to the maximum extent possible as
direct expenditures for projects and
programs. Finally, it provides that
up to $30 million of the $1.5 billion
per year authorized for Title I will
be available to the Inspectors
General for the Department of
State and USAID for audits,
investigations, and other oversight
of program funds.

The State Department submitted the Pakistan assistance strategy report required by Title III on
December 14, 2009. The report describes three key objectives of U.S. assistance under Title 1:

•   Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
    needs.

•   Help the Pakistani Government address basic needs and provide improved economic opportunities
    in areas most vulnerable to extremism.

•   Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

The programs envisioned to achieve these objectives, together with planned funding levels from FY 2010
through FY 2014 are presented in Table 2.

Table 2. Summary of Projected U.S. Assistance to Pakistan for FY 2010 through FY 2014

Activities                                                                      ($ millions)
Investment in high impact, high visibility infrastructure                               3,500
programs
• Agriculture                                                                          2,000
• Support for permanent solutions to Pakistan’s energy crisis                          1,000
• Other infrastructure                                                                   500
Government capacity improvement                                                        2,000
• Improved national and local governance                                               1,000


                                                                                                              7
Activities                                                            ($ millions)
• Improved security and legal institutions                                    1,000
Focused humanitarian and social services                                      2,000
• Immediate post-crisis and other humanitarian assistance                       500
• Increased access to and quality of education and health services            1,500
Total                                                                         7,500

Source: Pakistan assistance strategy report dated December 14, 2009


None of the new funds authorized by the Enhanced Partnership with Pakistan Act have been received by
the U.S. departments and agencies that will implement the Act. However, these departments and
agencies continue to implement their existing programs in Pakistan and have made adjustments to their
programs to make them more consistent with the new strategies outlined in the Pakistan assistance
strategy report, the civilian-military plan for Pakistan, and the Afghanistan and Pakistan regional
stabilization strategy.

It will be challenging to achieve the outcomes envisioned by the Enhanced Partnership with Pakistan Act.
All international development programs (as opposed to short-term humanitarian assistance programs)
require a long-term orientation and sustained focus. The U.S. Government hopes that a large portion of
its assistance programs in Pakistan will be implemented directly by Pakistani institutions, including the
Government of Pakistan. It is hoped that implementing programs primarily through Pakistani
institutions—with a correspondingly smaller role for U.S.-based contractors and grantees—will help
build strong local institutions and reinforce the reputation and standing of the Government of Pakistan.
While this approach is not unprecedented, it represents a fundamental change in the way the U.S.
Government delivers civilian assistance in Pakistan. It will be important to monitor the degree to which
both Governments maintain focus on the objectives outlined in the Enhanced Partnership with Pakistan
Act and also to monitor the effectiveness and accountability record of institutions that are chosen to
carry out specific assistance programs.




                                                                                                       8
Figure 2. Map of Pakistan




                            9
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are aligning current
assistance programs with the new strategies that support Title I of the Enhanced Partnership with
Pakistan Act of 2009, and they are designing and negotiating new programs to implement these
strategies. An overview of the status of current and new programs is provided in the following sections.
Since the departments and agencies have relatively few results to report since passage of the Act,
descriptive information is presented on the programs, performance indicators, and performance targets
for FY 2010 to convey a sense of the magnitude of the civilian assistance program in Pakistan and the
results it is expected to achieve.

The U.S. Embassy reports that $1.8 billion in FY 2009 and FY 2010 funds has been obligated for non-
military assistance as of March 31, 2010 (Table 3). (No expenditure information corresponding to these
obligations is yet available. Also note that the new appropriations authorized under the Act have not
yet been received.)

Table 3. Program Financial Status as of March 31, 2010 ($ Millions; Unaudited)

Activities                                                FY 2009         FY 2010          Total
                                                         Obligations     Obligations     Obligations

High impact, high visibility infrastructure programs
Trade development                                                 5.0               –             5.0
FATA roads/bridges                                                  –               –               –
FATA roads (Swat, ring road)                                        –               –               –
Foreign agriculture programs                                     44.0               –            44.0
Subtotals                                                        49.0               –            49.0
Government capacity improvement
Counternarcotics                                                    –               –               –
Border security (aviation)                                        8.9               –             8.9
Border security (commodities and training)                          –               –               –
Police/law enforcement training                                  22.1               –            22.1
Demand reduction/ awareness                                         –               –               –
Governance                                                       50.3               –            50.3
Democracy rights labor                                              –               –               – 
Democracy - National Endowment for Democracy                        –               –               – 
Energy programs                                                  66.6            94.2           160.8
Dept. Homeland Security/Immigration & Customs                     1.1             1.1             2.2
Enforcement programs
Federal Bureau of Investigation/Legal attaché programs            1.0             1.8             2.8
Drug Enforcement Agency programs                                  1.5             1.5             3.0
Subtotals                                                       151.5            98.6           250.1
Focused humanitarian and social services
Humanitarian assistance-earthquake reconstruction                52.4               –            52.4

                                                                                                        10
Activities                                                  FY 2009        FY 2010          Total
                                                           Obligations    Obligations     Obligations
Health                                                             87.2              –            87.2
Educational (Incl. $45m Higher Education Commission)              173.5              –           173.5
Humanitarian programs/social assistance – internally              150.0              –           150.0
displaced persons ($44m cash transfer, Benazir Income
Support Program, and World Food Program)
Humanitarian programs/social assistance - other programs           58.9              –            58.9
Humanitarian programs (Office of Foreign Disaster                 105.8           54.7           160.5
Assistance)
Office of Transition Initiatives                                  67.5               –            68.0
Health                                                            23.5               –            23.5
World Food                                                        55.4            57.9           113.3
USAID Transfer to United Nations Bhutto Commission                 1.0               –             1.0
USAID Transfer to State (Dept. of Defense) in process             10.0               –            10.0
Trafficking in persons                                             0.5               –             0.5
Mitigating child labor                                               –             4.0             4.0
Pakistan internally displaced persons                             59.6               –            59.6
Afghan refugees                                                   80.9               –            80.9
Fulbright                                                         19.5               –            19.5
Other exchanges                                                   35.0            30.0            65.0
Public diplomacy operating expenses                                2.0             2.0             4.0
Subtotals                                                        982.6           148.6         1,131.2

Other programs
Economic growth                                                   340.2              –           340.2
International Trade Administration FY 2010 Funds                    0.8            0.8             1.6
Bio-security                                                       12.0              –            12.0
Telemedicine                                                        0.5              –             0.5
Strategic communications                                           22.6              –            22.6
U.S. Institute For Peace                                              –            0.9             0.9
Military information support team                                   7.0            7.0            14.0
Subtotals                                                         383.1            8.7           391.7
Totals                                                          1,566.2          255.9         1,822.1

Source: U.S. Embassy/Islamabad


High Impact, High Visibility Infrastructure Programs
Both USAID and the U.S. Department of Agriculture plan programs in this area.

USAID is designing programs that are expected to lead to five new awards (grants or contracts) in the
infrastructure area, and it is in the process of negotiating three additional new awards. These new
infrastructure programs will support the following activities:

•   Water supply and sanitation.

•   Tube well rehabilitation.

•   High-efficiency irrigation systems.

                                                                                                         11
•   Surface-water management in Balochistan.

•   Agricultural recovery program in Swat/Buner.

•   Rehabilitation of three thermal electrical generation plants at Jamshorro, Muzafaraghar, and Gudu.

•   Reform of the electricity distribution company.

•   Road construction/rehabilitation in South Waziristan.

Illustrative performance indicators for these new programs will include:

•   Capacity constructed or rehabilitated.

•   Number of farmers, processors, and others who have adopted new technologies or management
    practices.

•   Number of additional hectares under improved technologies or management practices.

•   Number of agriculture-related firms benefiting directly from U.S. Government-supported
    interventions.

•   Energy saved.

•   Number of people with increased access to modern energy services.

•   Kilometers of transportation infrastructure constructed or repaired.

The Department of Agriculture plans to make a $30 million Food for Progress grant to a U.S.-based
NGO to implement a new Pakistan Agriculture and Cold Chain Development Project. The project aims
to help modernize agriculture in the Balochistan Province of southwest Pakistan, where poor storage
infrastructure is an important constraint to higher value added activities and access to urban markets.
By linking private sector participants in the perishable goods value chain with new cold-chain facilities
and enhanced production techniques, the project will improve food quality and supply, support higher
farm gate prices for producers, and ensure a higher value end product to consumers. Implementation of
international phytosanitary and regulatory standards will move current horticulture, fruit, and fish
production in Balochistan toward larger, more profitable markets. USDA is in the process of
negotiating this grant.




                                                                                                         12
Focused Humanitarian and Social Services: Immediate Post-Crisis and
Humanitarian Assistance

USAID manages the largest U.S. Government humanitarian assistance programs in Pakistan, while the
Department of Defense manages some relatively small food and medical assistance programs.

Twenty current USAID humanitarian assistance contracts and grants help respond to the effects of the
2005 earthquake in Northern Pakistan or assist internally displaced persons that have been affected by
Pakistan’s military offensive against insurgents in the FATA and the North-West Frontier Province
(NWFP). These focus on health, education, and livelihoods and economic development. Current
programs support the following interventions:

•   Emergency food programs.

•   Earthquake reconstruction.

•   Primary health care services in earthquake-affected areas in Northern Pakistan.

•   Assistance to internally displaced persons.

•   Child health services in the FATA.

•   Community rehabilitation infrastructure support (construction).

•   Vocational education, scholarships, and infrastructure improvements at selected universities.

•   Livelihood development in the FATA.

•   Capacity building for government institutions and NGOs in the FATA.

•   Support for the FATA Transition Initiative (cross sectoral support for projects such as irrigation and
    small potable water schemes, road repairs, repairs to public facilities, and media development
    activities and outreach efforts).

•   Postconflict reconstruction of Malakand to improve health, education, and staff capacity.

•   Cash Payments to very poor families through the Benazir Bhutto Income Support Program.

•   Road and electricity infrastructure in South Waziristan.

•   Support for a free media.

Illustrative performance indicators (with FY 2010 targets in parentheses) for these programs include:

                                                                                                        13
•   Reconstruction of health and educational facilities: new design starts (3), new construction starts
    (23), and buildings completed (23).

•   Number of people trained in maternal or newborn health and nutrition (30) and child health and
    nutrition (150).

•   Number of delivery points providing family planning assistance (70).

•   Percentage of births attended by a doctor, nurse, or trained midwife (50).

•   Number of deaths among children under age 5 per 1,000 live births (90).

•   Number of teachers trained (1,450).

•   Number of full-time equivalent jobs created (562).

•   Number of new technologies or management practices made available for transfer (458).

•   Number of additional hectares under improved technologies or management practices (50).

•   Number of individuals receiving short-term agricultural sector productivity training (1,250).

As examples of the types of results achieved by these programs since October 2009, USAID/Pakistan
reported the following:

•   On March 4, 2010, USAID disbursed $85 million to the Benazir Income Support Program to assist
    approximately 600,000 low-income Pakistani families. This program reaches millions of Pakistan's
    poorest families with cash income supplements equivalent to $300 per year. The program
    contributes to gender equality in that payments are made to the senior female in each household.
    (Studies have shown women allocate more income to basic needs than do men.) In addition, the
    program advances inclusion of women by insisting that recipients have national identity cards. (At
    the beginning of the program, 8 million more married men than married women had identity cards.)

•   USAID supports distribution of humanitarian assistance kits (containing mattresses, quilts, cooking
    equipment, etc.) and “non-food item” kits (containing hygiene, cooking, and other household items)
    in the FATA. For example, 2,000 non-food item kits were delivered on January 22, 2010, and 1,000
    humanitarian assistance kits were delivered on February 16, 2010.

•   The water system in the Lakki Frontier region in the FATA was rehabilitated by constructing surface
    tanks and a flood wall, along with 3,565 meters of distribution pipelines and rehabilitation of other
    associated infrastructure.



                                                                                                          14
USAID is designing or negotiating programs that will lead to five new awards to support the following
types of activities:

•      Infrastructure and livelihood development in NWFP, FATA, and Balochistan.

•      Postconflict reconstruction of Malakand.

•      Road and electricity infrastructure in South Waziristan and Bajaur.

•      Support for radio broadcasting.

Illustrative performance indicators for these new programs include the following:

•      Number of beneficiaries assisted.

•      Percentage of disaster-affected households provided with basic inputs for survival, recovery, or
       restoration of productive capacity.

•      Percentage of assisted communities that have constructed/developed physical infrastructure to
       mitigate the effects of shocks.

While not part of the development assistance authorized under Title I of the Act, the Department of
Defense manages humanitarian assistance training activities with the Pakistan military that involve food
distribution and some minor medical support. During these training activities, food kits containing salt,
flour, rice, tea, beans, and butter are distributed to families in the FATA. Funding for these activities in
FY 2010 is expected to reach $4 million.

Oversight Results

During the period covered by this report—from the signing of the Enhanced Partnership with Pakistan
Act on October 15, 2009 until March 31, 2010—the USAID OIG completed one performance audit
report on humanitarian assistance activities. The USAID OIG conducted a performance audit of the
Capacity Building for the Federally Administered Tribal Areas Development Program to determine
whether the program is achieving its main goals of (1) improving the capacity of FATA governmental
institutions to govern and (2) increasing the capacity of FATA NGOs to promote good governance. 1

The auditors concluded that, although the program has provided training, taken initial steps to automate
FATA institutions, and completed some media activities, little had yet been achieved in building the
capacity of FATA governmental institutions and NGOs. Specific findings included the following:


                                                            
1
 “Audit of USAID/Pakistan's Capacity Building Program for the Federally Administered Tribal Areas Development
Program” (Audit Report No. 5-391-10-005-P dated January 28, 2010).


                                                                                                           15
•   Regarding the first main goal, little progress had been achieved to build the capacity of the FATA
    Secretariat and the FATA Development Authority, in part because the program got off to a slow
    start. During the first year, the contractor focused its resources on working out best approaches to
    designing and implementing activities, building up relationships with FATA institutions, and
    developing work plans. The deteriorating security situation in Peshawar also impeded progress.
    However, some progress was made in certain activities. For example, as of September 30, 2009, 74
    training events had been completed for 1,224 FATA governmental staff members.

•   Regarding the second main goal, the program did not increase the capacity of NGOs to promote
    good governance, although some progress was made. For example, the program had provided
    formal training classes and purchased office equipment for 42 NGOs working in FATA. However,
    FATA-based NGOs still lack skills, business practices, and financial resources needed so that the
    NGOs can serve as effective proponents for better governance.

•   Because of a change in U.S. Government strategy, USAID/Pakistan began to rethink its approach of
    providing the bulk of its program assistance through U.S.-based implementers. As a result, in June
    2009 the mission did not fund an incremental funding request of $15.3 million and, 4 months later,
    approved only $4.7 million in additional funds. In October 2009, the mission asked its contractor to
    consider preparing a 90-day demobilization plan. However, as of November 2009, no final decision
    had been made as to whether the contract would be terminated or, if terminated, who would
    replace the U.S.-based contractor.

The audit report recommended that USAID/Pakistan (1) communicate with its contractor and the host
government about how the program will be implemented under the new strategy, (2) assign or transfer
400 computers and related equipment that were purchased under the program, (3) physically inventory
72 laptop computers that employees had taken home with them and issue bills of collection for any
missing computers, and (4) accelerate implementation of a geographic information system that enables
project information to be represented on maps and a database that will be used to help monitor
development projects throughout their lifecycles. USAID/Pakistan has implemented the first
recommendation and has made plans for implementing the remaining three recommendations.

Focused Humanitarian and Social Services: Increased Access to and
Quality of Education and Health Services

Three U.S. Government departments and agencies manage education and health assistance programs.
USAID has a number of current and planned programs directed toward increasing access to and quality
of education and health services, and the Department of Agriculture plans two school feeding grants.
The U.S. Embassy Public Affairs Office manages exchange and local English-language education programs
that contribute to educational, professional, and leadership training objectives, while strengthening
connections between the United States and Pakistan.

USAID is managing 19 current awards that aim to increase access to, and quality of, education and
health services. The following activities are being supported:



                                                                                                        16
•   Maternal-child health services.

•   Family planning services.

•   Improved access to safe drinking water and hygiene education.

•   Polio eradication.

•   Tuberculosis control.

•   Involvement of religious leaders in health and development activities.

•   Teacher training and other education interventions at the primary, secondary, and tertiary levels.

•   Merit- and needs-based scholarships.

•   Capacity building for Pakistani institutions.

Illustrative performance indicators for current programs, with FY 2010 target levels of performance in
parentheses, include the following:

•   Number of women receiving active management of the third stage of labor (192,912).

•   Number of postpartum/newborn visits within 3 days of birth (415,947) and antenatal care visits (1.1
    million).

•   Number of children under age 5 who received vitamin A (80,000).

•   Number of cases of child pneumonia treated with antibiotics (50,000) and number of cases of child
    diarrhea treated (50,000).

•   Family planning couple-years of protection provided (5 million).

•   Number of delivery points that provide family planning counseling or services (8,084).

•   Tuberculosis case detection rate (75 percent).

•   Number of people in target areas with access to improved drinking water supply (1.1 million).

As examples of results achieved since October 2009, USAID/Pakistan reported the following:

•   On February 18, 2010, 100 midwifes graduated from a training program financed by USAID’s
    Pakistan Initiative for Mothers and Newborns Project.

                                                                                                         17
•   USAID has financed ambulances and medical equipment for district governments in Charsadda, Swat,
    D.I. Khan, Buner, Mardan, Vehari, and elsewhere.

•   On March 17, 2010, 27 USAID-funded students graduated from Pir Mahir Ali Shah Arid Agriculture
    University in Rawalpindi, a participating university in the Merit and Need-Based Scholarship Program.
    Since 2004, 118 scholarships have been awarded to students at the University.

USAID is designing health and education programs that are expected to lead to 17 new awards and is
negotiating 2 additional new awards. These new programs are expected to support the following types
of activities:

•   Provincial government health programs in Sindh, Punjab, Balochistan, and NWFP.

•   Support for health programs in the FATA.

•   Water and sanitation programs in South Waziristan.

•   Human immunodeficiency virus/acquired immunodeficiency syndrome (HIV/AIDs), hepatitis, and
    tuberculosis control.

•   Support for universities and teaching hospitals.

•   A demographic and health survey.

•   Provincial education programs in Sindh, Punjab, and Balochistan.

•   Educational television programming for children.

•   School renovation and construction.

•   Support for higher education.

•   Support for Fulbright scholarships.

Performance indicators for these new programs are expected to include the following:

•   Number of deaths among children under age 5 in a given year per 1,000 live births.

•   Percentage of women of reproductive age using, or whose partner is using, a modern method of
    contraception.

•   Cumulative number of HIV-positive individuals treated.

                                                                                                      18
•   Cumulative number of HIV infections prevented.

•   Cumulative number of HIV-affected individuals cared for.

•   Immunization rate.

•   Public expenditure on health.

•   Percentage of gross domestic product spent on health.

•   Percentage of population using improved drinking water sources.

•   Number of deaths among children under age five in a given year per 1,000 live births in that same
    year.

•   Number of children born per woman.

•   Percent of births attended by a doctor, nurse or trained midwife.

•   Share of public expenditure devoted to education.

•   Share of education funding to primary, secondary, and tertiary schools.

•   Net enrollment rate for primary, secondary, and tertiary schools.

•   Primary school completion rate.

The U.S. Department of Agriculture expects to make two school feeding grants totaling approximately
$15.8 million. Under these grants, the Department of Agriculture will supply an estimated 6,540 metric
tons of food to feed schoolchildren and an estimated $5.9 million in cash resources to implement school
rehabilitation projects and implement school capacity-building measures.

The U.S. Embassy’s Public Affairs Office reports that it is managing educational exchange and local
English language programs valued at $49.5 million. This includes $30 million for education and training in
the United States, ranging from short-term leadership and professional training to full academic degree
programs. The Public Affairs office expects that 2,000 Pakistanis will participate in exchange programs
over the next one and a half years, in addition to 5,000 Pakistanis attending local English language
programs and 250 Pakistani teachers attending local teacher training programs. The $19.5 million
Fulbright program will provide additional graduate study opportunities for Pakistani students in the
United States.




                                                                                                        19
Oversight Results

During the period covered by this report, the USAID OIG performed a desk review of one financial
audit on education and health activities and transmitted the audit report to USAID for action. The
financial audit covered $1.9 million in USAID funds managed by Children’s Global Network Pakistan. 2
The auditors concluded that, except for the effects of questioned costs of $320,123, the fund
accountability statement presented fairly, in all material respects, program revenues and costs incurred
under the cooperative agreement for the period audited. The questioned costs represented fringe
benefits that were not in accordance with the grantee’s policies, disbursements that lacked required
approvals, and procurements that did not follow established procedures or lacked evidence of
quotations. (The USAID OIG identified an additional $15,049 in questioned costs, representing
purchases that had not been properly advertised, that the auditors had inadvertently omitted from their
report.) In their report on cost-sharing contributions, the auditors noted that actual contributions had
fallen short of the required amount by $32,383. Additionally, they found ineligible questioned costs
totaling $9,387. The auditors identified three material weaknesses in internal controls, and the USAID
OIG identified one additional reportable internal control condition, all dealing with disbursement and
purchasing procedures. Finally, the auditors identified seven material instances of noncompliance dealing
with matters discussed above plus a lack of physical inventories and lack of USAID approval for the
individual selected to fill the grantee’s financial manager position.

Government Capacity Improvement: Improved National and Local
Governance

USAID, the U.S. Department of Agriculture, and the U.S. Embassy Public Affairs Office have current and
planned programs to strengthen government capacity and improve governance.

USAID has five current awards that contribute to improved national and local governance, including
parliamentary strengthening, elections support, support for decentralization of government
responsibilities to districts and municipalities, and anticorruption initiatives. The following activities are
supported:

•      Election support.

•      Decentralization initiatives.

•      Parliamentary strengthening.

•      Anti-corruption initiatives.



                                                            
2
  “Financial Audit of USAID Funds Managed by Children’s Global Network Pakistan Limited, for the Year Ended
June 30, 2008” (Audit Report No. 5-391-10-012-R dated December 22, 2009). 


                                                                                                              20
Illustrative performance indicators for these programs are shown below (with FY 2010 targets in
parentheses):

•   National legislators and staff trained (200).

•   Executive oversight actions taken by the parliament (3,500).

•   Civil society organizations participating in legislative proceedings or advocacy with the parliament
    (75).

•   Public forums resulting in which national legislators and members of the public interact (5).

•   Election officials trained (700).

•   Sub-national government entities receiving assistance to increase their own revenues (13) or
    improve performance (40).

•   Individuals who received training, including management skills and fiscal management, to strengthen
    local government and/or decentralization (1,500).

•   Local mechanisms for citizens to engage subnational government entities (400).

As examples of the types of results achieved by USAID programs since October 2009, USAID/Pakistan
reported the following:

•   Two U.S. Federal judges were in Pakistan for several days in December 2009 as part of a judicial
    exchange to discuss expeditious handling of cases, corruption, and judicial independence and
    accountability.

•   Under the Districts That Work Project, a provincial conference was held in Quetta in February
    2010 to institutionalize management and accountability tools developed in partnership with 100
    target district governments.

USAID is designing eight new programs and is in the process of negotiating three additional new
programs to support the following governance activities:

•   Election support.

•   Support for women’s human rights.

•   Support for civil society organizations.

•   Support for judicial training and the court system.

                                                                                                           21
•   Decentralization of government responsibilities to districts and municipalities.

•   Parliamentary strengthening.

These new programs will contribute to many of the same performance indicators listed above in
addition to the following new performance indicators:

•   Draft laws accompanied by technical analysis and subject to review by legislative committees.

•   Draft laws subject to final vote in new or transitional legislatures.

•   Laws or amendments promoting decentralization.

•   Courts with improved case management.

•   Judges trained with U.S. Government assistance.

The Department of Agriculture manages three types of programs to build Pakistani institutional capacity
in the agriculture sector:

•   Endowments funded from the sale of commodities under the Food for Progress program are used
    to support agricultural research and development activities in accordance with Pakistan’s long-term
    development goals and to promote scientific cooperation between Pakistan and U.S. agricultural
    scientists. According to the Department of Agriculture, endowments have been established with
    the Pakistan Agriculture Research Council ($23 million), the Pakistan Science foundation ($15
    million), the University of Agriculture, Faisalabad ($12 million), the Ministry of Agriculture/Economic
    Wing ($3 million), the Peshawar Agriculture University ($1 million), and the Peshawar Forestry
    Institute ($1 million). The interest generated on these endowments, which is used for program
    purposes, reportedly totals about $5 million per year.

•   Technical assistance exchange programs are used to develop linkages between Pakistani scientists
    and their counterparts in the United States. During the Green Revolution, many Pakistani
    agricultural scientists were trained in the United States through funding provided by the U.S.
    Government under various initiatives. However, according to the Department of Agriculture, the
    current generation of Pakistani scientists has had few opportunities to develop similar linkages with
    American scientists, resulting in an overall decline in Pakistan’s agricultural research system. The
    Department of Agriculture plans to expand the number and quality of exchanges between Pakistani
    and U.S. scientists to improve the capacity of Pakistan’s agriculture research system.

•   One of the outcomes of the May 2009 Afghanistan-Pakistan-United States Trilateral Summit meeting
    in Washington, DC was the establishment of a Trilateral Secretariat on Agriculture, under which
    three working groups were agreed upon: Food Security and Applied Research, Water Management,


                                                                                                         22
    and Trade Corridors. According to the Department of Agriculture, the Secretariat has met and is
    finalizing budgets and detailed action plans for the first phase of project implementation.

The Department of Agriculture also expects to receive $20 million from USAID to implement an
agricultural investment strategy that will build Pakistani Government capacity in the agriculture sector.
It is envisioned that the USAID funding will help the Department of Agriculture partner with the
Government of Pakistan’s Ministry of Food and Agriculture and core agriculture institutions to increase
agricultural productivity by building capacity to develop new technologies, improve management
practices and institute policy measures that increase economic returns.

The U.S. Embassy Public Affairs Office has two programs planned or under consideration to help
strengthen Pakistani Government capacity. The first, a planned $7 million program to build two radio
transmission towers, is expected to enable reception of Radio Pakistan throughout the FATA and
NWFP. The second, still under discussion, would finance about $10 million in information technology
infrastructure to enable new electronic government services. The educational exchange programs
managed by the Public Affairs Office are also intended to strengthen Pakistani Government capacity
through academic and leadership training opportunities.

Government Capacity Development: Improved Security and Legal
Institutions

The Narcotics Affairs Section (NAS) at the U.S. Embassy in Islamabad, in coordination with other U.S.
law enforcement agencies in Pakistan, manages five programs that support improved security and legal
institutions:

•   Counternarcotics and crop control.

•   Border security.

•   Roads and bridges in the FATA and NWFP.

•   Police and prosecutor training.

•   Support for the Ministry of Interior’s Air Wing.

According to NAS, two letters of agreement with the Government of Pakistan have been signed in FY
2010, authorizing expenditure of $87.5 million in U.S. Government assistance funds.

NAS plans to measure the success of these programs with a combination of lower-level performance
indicators (that is, input and output indicators, such as amounts of funding provided or numbers of
Pakistani officials trained) and higher-level performance indicators (that is, outcome indicators, such as
reductions in the number of hectares of opium poppies grown in Pakistan). Progress reporting to date
has been focused on input and output indicators. According to NAS:




                                                                                                         23
•   NAS procured $5.6 million in equipment for the Elite NFWP Police, the Anti-Narcotics Force,
    Punjab Police, and the National Police Academy. The equipment included surveillance and
    communication equipment, protective vests, ballistic helmets, armored personnel carriers, vehicles,
    and mobile forensics labs.

•   Fifteen small infrastructure works (e.g., wells, irrigation channels, and micro-power stations), 20
    kilometers of road, and 30 police outposts were built in the FATA and NWFP.

•   Twenty-five community mediators and 1,151 law enforcement officials attended NAS-sponsored
    training classes.

NAS reports that bureaucratic delays have slowed program implementation, and that security problems
including targeting of police stations by extremists have limited the number of training venues that can
be used for police and law enforcement training.

In addition to the programs sponsored by NAS, the U.S. Embassy Public Affairs Office manages exchange
programs that include opportunities for Pakistani police, prosecutors, and lawyers to meet and work
with counterparts in the United States.

Oversight Results

During the period from October 15, 2009 through March 31, 2010, the Department of State OIG
completed two performance audits covering counternarcotics programs. The first audit outlined below,
while focused on Afghanistan, is included in this report because counternarcotics efforts in Afghanistan
and Pakistan are closely intertwined as there is so much narcotics activity that crosses the border
between the two countries.

Status of the Bureau of International Narcotics and Law Enforcement Affairs
Counternarcotics Programs in Afghanistan, Performance Audit (Report No. MERO-A-10-
02 dated December 2009). The State OIG conducted this performance audit to assess U.S. efforts
to plan and manage counternarcotics activities in Afghanistan, including an analysis of (1) U.S. obligations
and expenditures, (2) results of assistance projects, (3) assistance coordination mechanisms and strategy,
and (4) major obstacles that affect the achievement of U.S. goals.

In its performance audit, the State OIG found that the Department of State had not clarified an end
state, engaged in long-term planning, or established performance measures for its counternarcotics
programs in Afghanistan. The State OIG also found that the U.S. military has begun to engage more
heavily in counternarcotics activities. This increased military involvement will decidedly affect the scale
of the Department’s counternarcotics programs as well as its overall role. Further, there is no
agreement on appropriate roles for either civilian agencies or the U.S. military. The Department has
also failed to plan for transitioning responsibility for counternarcotics programs to the Afghan
Government, should funding not be sustainable at current levels. While some progress has been made
in the fight against illicit narcotics in Afghanistan, successes are difficult to quantify. The State OIG also
found that the Bureau of International Narcotics and Law Enforcement Affairs (INL) lacks in-country


                                                                                                             24
monitoring of its seven counternarcotics contracts; examination of four contracts revealed some
weaknesses in performance measurement and setting of unrealistic goals. Coordination among agencies
involved in counternarcotics efforts is informal and depends on individuals. There is limited
collaboration and information sharing between Embassy Kabul and Embassy Islamabad, and no significant
cooperation between the embassies on critical issues.

The State OIG recommended that the Department: define an end state for counternarcotics programs
in Afghanistan, with objectives, performance measures, and milestones; establish benchmarks to
transition responsibilities for counternarcotics programs to the Afghan Government; communicate with
provincial reconstruction teams and request reporting from the teams; develop a workforce plan to
ensure that sufficient, experienced, and trained personnel are assigned as in-country contracting officer’s
representatives and direct-hire staff for the narcotics affairs section at Embassy Kabul; establish
procedures to ensure that in-country contracting officer’s representatives periodically assess contractor
performance and its impact, and ensure that contractor files are properly maintained and accessible;
make counternarcotics contracts more accurate and specific; reinstitute regularly scheduled
coordination meetings; develop a workforce plan to ensure appropriate personnel are assigned to
execute counternarcotics programs in the poppy-producing southern provinces.

The Bureau of International Narcotics and Law Enforcement Affairs Air Wing Program in
Afghanistan and Pakistan, Performance Audit (Report No. MERO-A-10-03 dated March 12,
2010). The objectives of this performance audit were to determine: (1) whether the Department’s
counternarcotics Air Wing program achieved its objectives and the impediments to achieving objectives;
(2) whether the Department is monitoring contractor(s) to ensure performance measures have been
established and are being achieved; and (3) the effectiveness and efficiency of counternarcotics aviation
services in Afghanistan and Pakistan and whether the costs incurred and charged by the contractor(s)
are proper.

The Air Wing program in Afghanistan effectively provides aviation support for INL’s counternarcotics
efforts and other missions. To date, the contractor, DynCorp, has safely met its contracted air support
requirements, has sustained the required aircraft readiness rate, uses appropriate maintenance and flight
scheduling systems, and properly inventories U.S. Government-furnished equipment. The State OIG
noted weaknesses in the INL Office of Aviation’s (INL/A) contract and management oversight including
lack of onsite verification of contract deliverables and cost reports. A contracting officer’s
representative (COR) from INL/A has never been to Afghanistan, and there are no plans to send one.
The performance-based contract awarded in 2005 lacked specific performance requirements, and until
2009, DynCorp worked in Afghanistan under general and outdated requirements, hindering program
efficiency. Additionally, a performance-based contract may not be the ideal vehicle to manage and
oversee such a complex program. The State OIG believes the Department should consider modifying
the DynCorp contract to better control costs and manage contractor performance.

In Pakistan, the Air Wing program has been generally effective in providing critical air support including a
variety of missions for the Pakistan Government. However, DynCorp has had problems meeting flying
hour goals. The State OIG was unable to determine whether the Pakistan Government is adhering to
the terms of a letter of agreement regarding use of INL/A aircraft. The senior aviation advisor in


                                                                                                         25
Pakistan reports directly to the INL/A COR in the United States on all contractual issues, but the COR
has never been to Pakistan. This situation potentially weakens management and internal controls. OIG
also learned that neither INL/A nor DynCorp knows who owns the Air Wing information system or its
contents.

The State OIG recommended that Embassy Kabul and Embassy Islamabad assign U.S. Government
direct-hire employees to supervise personal services contractors in Afghanistan and Pakistan. The State
Department’s Office of Acquisition Management, in consultation with INL, should develop a work
breakdown structure for the Air Wing program in Afghanistan. INL should amend the Air Wing
contract with DynCorp to clarify ownership of the Air Wing information system and ensure access
rights to its data.

Economic Growth

In addition to the program areas listed in the Pakistan assistance strategy report, USAID has a major
focus on economic growth, and the U.S. Department of Commerce supports trade-related programs.
USAID has nine current awards that fund assistance in trade, energy, and agriculture. The following
activities are supported:

•   Energy efficiency and energy capacity expansion.

•   Job creation.

•   Trade and competitiveness initiatives.

•   Assistance to entrepreneurs and individual firms.

•   Food security and agriculture programs.

Illustrative program performance indicators, with FY 2010 performance targets in parentheses, include
the following:

•   Government-private sector consultations undertaken (8).

•   Trade or investment policy reforms implemented (1).

•   Municipalities receiving assistance in regulatory or administrative simplification (15).

•   Firms receiving to improve management practices (810).

•   People gaining employment or better employment as a result of participation in U.S. Government-
    funded workforce development programs (8,258).



                                                                                                        26
•   Micro enterprises receiving business development services from (10,000).

•   Micro enterprises receiving finance from microfinance or banking institutions (5,000).

•   Number of energy policy reforms, procedures, or regulations drafted (10).

•   Additional hectares under improved technologies or management practices (15,000).

•   Individuals receiving short-term agricultural sector productivity training (360,000).

As examples of results achieved under current programs, USAID/Pakistan reported the following:

•   USAID distributed $12 million through a local bank to provide working capital grants of $3,000 to
    $5,000 to 2,611 business owners affected by rioting in Karachi, plus $2 million in credit support.

•   Generators and lights were provided for the Chaman border crossing with Afghanistan, improving
    security and permitting customs inspections to continue after dark.

•   Improved wheat seed was distributed to 2,752 farmers in Balochistan.

In addition to programs managed by USAID in the economic growth area, the U.S. Department of
Commerce received $3 million in FY 2009 funding from USAID to implement trade and commercial law
development programs. These programs are focused on trade and investment promotion, commercial
law development, professional development activities, and workshops for a Generalized System of
Preferences program. In the first quarter of FY 2010, an investment promotion mission led by the
Deputy Chief of Mission and comprising eight Pakistani chief executive officers (CEOs) traveled to
Houston and New York. According to the U.S. embassy’s commercial attaché, the trade mission
generated favorable publicity and stimulated useful exchanges. In general, according to the attaché,
trade and investment initiatives are being met with enthusiasm by Pakistani private and public sector
contacts. On the other hand, the administrative requirements associated with managing these programs
are taxing, given current staffing, and security requirements (ensuring the safety of U.S. business persons
visiting Pakistan and vetting Pakistani business persons nominated for training or invitational travel to the
United States) present challenges as well.

Assistance to Pakistani Institutions

The Paris Declaration on Aid Effectiveness, dated March 2, 2005, and the Accra Agenda for Action,
dated September 4, 2008, encourage the use of host country financial and procurement systems, aiming
to promote host country leadership and ownership of development programs. Section 101(c)(3) of the
Enhanced Partnership with Pakistan Act of 2009 encourages the use, as appropriate, of Pakistani firms
and NGOs, including through host country contracts, to implement the assistance programs authorized
under Title I of the Act. In line with the principles articulated in these documents, the U.S. Government
is transforming its business model to encourage Pakistani leadership of programs supported by U.S.


                                                                                                          27
Government assistance, help the Government of Pakistan regain citizen confidence, and ensure that U.S.
Government investments are effective. It is hoped that this approach will:

•   Align programs with locally identified priorities.

•   Build Pakistani “ownership” of programs.

•   Help build Pakistani institutional and leadership capacity.

•   Promote decentralization to more actively engage provincial and local partners and beneficiaries.

•   Deliver assistance “on-budget” to promote transparency, harmonization, and better budget planning
    by the Government of Pakistan.

•   Reduce costs.

USAID expects that future awards to U.S. prime contractors and grantees will be limited to those
activities where both governments agree that (1) the technical or managerial capacity to achieve the
desired results does not reside within Pakistan; (2) there is a need to respond to emergencies that
demand immediate U.S. action (i.e., disaster assistance); or (3) there are extreme cost benefit factors. If
transitioning from a U.S. partner to a Pakistani partner would result in serious disruptions in service
delivery or compromise significant U.S. Government investments, USAID will consider extending U.S.
contracts and grants as short-term bridges or longer if necessary. In addition, allowing activities to
continue to completion may permit faster program implementation and help ensure a smooth transition
to the new business model.

According to USAID, 14 percent of its partners as of March 31, 2010 were Pakistani institutions.
USAID/Pakistan believes that the strategic shift toward more partnerships with the Government of
Pakistan and Pakistani institutions has driven closer consultation to plan the direction of activities, the
type of activities to be funded, and transparency initiatives. The agency reports that it has awarded
$200.5 million to Pakistani institutions as shown in Table 4.

Table 4. Awards to Pakistani Institutions (Unaudited) 

Instrument type                                     Value
                                                 ($ million)
Budget support/cash transfer: assistance for              44
NWFP internally displaced persons.
Budget support/cash transfer: Benazir                      85
Income Support Program.
Direct funding to the Government of                      16.5
Pakistan: Tarbela Dam rehabilitation.
Direct funding to provincial governments:                  36


                                                                                                              28
Instrument type                                    Value
                                                ($ million)
Malakand post-conflict reconstruction.
Funding to Pakistani NGOs: Bolton market                  13
response program.
Funding to Pakistani NGOs: South                           2
Waziristan monitoring and evaluation.
Funding to Pakistani NGOs: Malakand                        2
monitoring and evaluation.
Funding to Pakistani NGOs: Malakand                        2
financial and management services and
capacity building—FATA Secretariat.
Total                                                 200.5

USAID expects that, by the end of FY 2010, 23 percent of its partners will be Pakistani institutions.

The U.S. Department of Agriculture has established endowments with several Pakistani institutions,
including Pakistani Government institutions, and it expects to use new funding to expand its partnership
with the Government of Pakistan.

Risks, Implementation Problems, and Mitigation Strategies

Through their planning efforts and experience to date, U.S. departments, agencies, and oversight
organizations working in Pakistan have identified several risks that could endanger the U.S.
Government’s assistance program in Pakistan.

One group of risks can be collectively referred to as “political risk.” The assistance strategy is premised
on, and is intended to strengthen, commitment to civilian rule and unambiguous opposition to all
terrorist groups operating in Pakistan. Any softening of support for these principles would endanger the
assistance program and, by extension, endanger development of a strong long-term relationship
between Pakistan and the United States. Another risk is that economic reform efforts could threaten
entrenched interests and provoke a political reaction, even as reforms help transform Pakistan’s
economy and build a broader and more sustainable basis for economic growth and poverty reduction.

Security risks are also extremely important. Travel in remote frontier areas is dangerous, and extremist
groups have demonstrated significant capability to stage terror attacks even on well-protected targets in
urban areas. These dangers are, in part, a manifestation of the limited capacity of Pakistani security
institutions to fulfill their roles and responsibilities.

Plans to expand direct assistance to the Government of Pakistan while reducing the role of U.S.-based
contractors and grantees will place heavy demands on Pakistani Government institutions. Direct
assistance to the Government of Pakistan may take two forms: project assistance and budget support.
For project assistance, U.S. Government assistance funds are normally segregated in separate bank


                                                                                                        29
accounts, and the host government is required to keep books and records that show how assistance
funds are spent. For budget support, U.S. assistance funds are comingled with other budgetary
resources available to the host government, and it is not possible to provide an accounting of how U.S.
assistance funds have been used.

Many of the U.S. Government’s new partners—whether in the Government of Pakistan or in the local
NGO community—will have management capacity issues that will require institutional strengthening and
collaborative oversight for a good part of the strategy period. Especially problematic will be the
diminished capacity of Pakistan’s government structures and civil service to effectively absorb external
resources, which will constrain the pace of implementation. According to USAID/Pakistan, this
constraint will likely be felt most acutely in the FATA, NWFP, and Balochistan, where public and private
sector capacity is less developed than elsewhere in Pakistan. Potential areas of institutional vulnerability
include budget and procurement systems, internal control, accounting, and institutional policies.

In combination with serious security risks that limit direct monitoring by U.S. Government personnel,
institutional capacity issues create a significant risk of loss of U.S. Government funds to waste or theft.
However, the U.S. Government has made the judgment that it must expand its engagement with
Pakistani institutions now, rather than conditioning its engagement on improved administration and
governance.

Limited institutional capacity has already adversely affected program implementation, according to the
U.S. departments and agencies working in Pakistan. For example, USAID/Pakistan reports that budget
support for assistance to internally displaced persons and the Benazir Income Support Program, as well
as planned budget support for the Higher Education Commission, has been slowed by Pakistani
Government bureaucratic delays. These delays involve inability by Pakistani partners to meet USAID's
conditions precedent to disbursement and to align their budgets with the influx of new funding. These
delays work against the purpose of emergency budget support and jeopardize subsequent budget
support payments. USAID also reports that the Government of Pakistan has had cash flow problems
that make it hard to use the fixed-amount reimbursement method to disburse funds for construction
work under host country contracts. NAS also reports that bureaucratic delays (e.g., delays in signing
letters of agreement, clearing police equipment through customs, and issuing visas for expatriate
instructors) have slowed the pace of program implementation. For example, 3,320 protective vests
have been awaiting customs clearance at the airport in Islamabad since late December 2009, and a letter
of agreement that would provide $40 million in funding for road construction has been awaiting
signature since October 2009.

To limit the impact of institutional weaknesses on program implementation, the U.S. departments and
agencies in Pakistan are providing institutional strengthening assistance. To assess the need for such
assistance, USAID has initiated the prequalification of Pakistani Government entities and NGOs through
preaward surveys of their internal controls and administrative and financial management systems.
USAID is moving to complete preaward surveys for a priority list of nearly 70 potential Pakistani
implementing partners. Of course, the time required to conduct these surveys can itself contribute to
delays in beginning program implementation but, as of March 31, 2010, USAID/Pakistan reports that it
has completed 12 preaward surveys.

                                                                                                              30
In parallel, USAID has begun to define a process that technical offices can use to expedite planning and
negotiations with the Pakistani Government at the federal and provincial levels. This process is taking
place concurrently with efforts to develop agreements, contracts, and grants required to implement
USAID assistance programs through Pakistani entities. The objective is for the U.S. and Pakistani
Governments to be ready to sign agreements when the preaward assessments and remedial actions are
complete, subject to the programs being approved.

USAID’s own internal policies and procedures also provide for ongoing monitoring of program
implementation through meetings with partners and beneficiaries, review of programmatic and financial
reporting, physical observation of program implementation (whether by USAID officials, public
accounting firms, engineering firms, or other proxies), and review of payment requests, and periodic
audits and evaluations.

The oversight organizations involved in monitoring assistance programs in Pakistan have also taken steps
to ensure that U.S. Government funds are protected against waste and theft. These steps include:

•   Establishing field offices in Pakistan for the OIGs of the Department of State and USAID.

•   Expanding the use of independent Pakistani public accounting firms to conduct financial audits of
    funds provided to Pakistani NGOs.

•   Providing training to Pakistani public accounting firms and to the Office of the Auditor General on
    standards and requirements applicable to financial audits of U.S. Government funds.

•   Helping the Office of the Auditor General to conduct financial audits of funds provided to Pakistani
    Government entities.

•   Establishing a working relationship with the National Accountability Board (NAB) and conducting
    joint investigations with NAB.

•   Collaborating with USAID/Pakistan to establish a fraud hotline in Pakistan. The hotline will be
    operated by a USAID partner with close involvement by the USAID OIG.

•   Providing fraud awareness briefings and expanding investigatory coverage.

•   Coordinating audits and investigations by the OIGs and GAO.

Staffing

To undertake the design, negotiation, and program management and monitoring tasks outlined above,
U.S. Government departments and agencies in Pakistan are expanding staffing levels.



                                                                                                          31
Staffing information provided by USAID indicates that it had 33 U.S. direct hire staff and 118 other staff
members on board as of March 15, 2010. Additional information on USAID staffing levels is presented
in Table 5.

Table 5. USAID Staffing in Pakistan as of March 15, 2010 (Unaudited)

Category                                           Islamabad      Peshawar       Peshawar                    Lahore        Karachi   Total
                                                                    Staff in
                                                                  Islamabad
U.S. direct hire                                            31             1             1                        –          –        33

U.S. staff from other                                       2              –             –                        –          –        2
departments and agencies
U.S. personal services                                      13             4             –                        –          –        17
contractors
Third-country nationals                                     6              1             –                        –          –        7

Foreign service nationals                                   73             –             14                       3          –        90
(Pakistani staff)
Eligible family members                                     1              –             –                        –          1        2

Total                                                   126                6             15                       3          1       151

Source: USAID/Pakistan.


By the end of FY 2010, USAID is expected to have 245 staff on board, including 53 U.S. direct hire staff
(see Figure 3).

Figure 3. Actual and Projected Staffing Levels in Pakistan for USAID

                    450


                    400
                                                                                   Total staff
                    350


                    300
    Staff Members




                    250


                    200


                    150


                    100
                                                                                    U.S. direct-hire staff
                    50


                     0
                                    9/2009         3/2010        9/2010*       3/2011*                  9/2011*
                          * Projections

                          Source: USAID/Pakistan


                                                                                                                        


                                                                                                                                             32
The U.S. Embassy Narcotics Affairs section reports that it had 108 staff and contractors on board as of
March 31, 2010, including 3 U.S. direct staff. The U.S. Embassy Public Affairs Office reports that it had
63 staff on board as of that date, including 10 U.S. direct hire staff.




                                                                                                        33
Oversight Status
USAID Office of Inspector General
The USAID OIG provides oversight for foreign assistance program administered by USAID, the United
States African Development Foundation, the Inter-American Foundation, and the Millennium Challenge
Corporation.

The USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in
2002. In recent years, the OIG has covered a wide spectrum of USAID programs in Pakistan, covering
such areas as relief and stabilization, reconstruction, sustainable development, education, and health
care. The USAID OIG’s oversight activities include performance audits, financial audits, and
investigations:

•   Performance Audits. The USAID OIG’s performance audit work is primarily directed toward
    determining whether USAID programs are achieving planned objectives and examining how well
    USAID is carrying out its managerial functions.

•   Financial Audits. U.S.-based contractors and grantees undergo organization-wide audits in
    accordance with the Federal Acquisition Regulation, the Single Audit Act, and Office of Management
    and Budget Circular A-133. For grantees, the audits are performed by public accounting firms, and
    for contractors that do a predominant share of their Federal business with USAID, the audits are
    normally performed by the Defense Contract Audit Agency under a reimbursable arrangement with
    USAID. USAID has extended similar requirements to foreign-based entities, including foreign
    governments. Foreign-based entities must have annual audits that include an auditor’s opinion on a
    financial statement that shows the uses of funds under each USAID contract or grant, a report on
    internal controls, a report on compliance with contract or agreement provisions and applicable laws
    and regulations, and a review report on cost sharing contributions if cost sharing is required. These
    audits are performed by public accounting firms or supreme audit institutions—like Pakistan’s Office
    of the Auditor General—that are vetted by the USAID OIG. In all cases, the USAID OIG is
    ultimately responsible for the quality of the audits. The USAID OIG reviews the audit reports and
    transmits them to USAID management with appropriate recommendations for corrective actions,
    and as appropriate the USAID OIG also attends audit entrance and exit briefings, reviews audit
    programs, and visits the auditors to examine the work performed and evaluate the evidence
    supporting the auditors’ conclusions and opinions.

•   Investigations. The USAID OIG’s special agents conduct investigations into possible violations of
    Federal laws, rules, and regulations. When agents conclude that a criminal or civil statute has been
    violated, the OIG consults with the Department of Justice to determine its interest in pursuing the
    matter. Investigative findings may also be referred to USAID management for administrative action.




                                                                                                       34
Final Audit Reports

From the passage of the Enhanced Partnership with Pakistan Act on October 15, 2009 until March 31,
2010, the USAID OIG completed one performance audit report and reviewed one financial audit report:

•   Audit of USAID/Pakistan’s Capacity Building for the Federally Administered Tribal
    Areas Development Program (Audit Report No. 5-391-10-005-P dated January 28,
    2010). The results of this audit are discussed on page 15.

•   Financial Audit of USAID Funds Managed by Children’s Global Network Pakistan
    Limited, for the Year Ended June 30, 2008 (Audit Report No. 5-391-10-012-R dated
    December 22, 2009). The results of this audit are discussed on page 20.

Investigations Results

During the period covered by this report, the USAID OIG made one criminal referral to the U.S.
Department of Justice concerning evidence of illegal acts by employees of a USAID contractor and
subcontractor.

Oversight Activities Underway

As of March 31, 2010, the USAID OIG had three performance audits in process:

•   Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration, and
    Decentralization in Earthquake-Affected (PRIDE) Areas. This project was designed to
    improve primary health care services for the earthquake-affected populations in the Bagh and
    Mansehra Districts of northern Pakistan. It has three main goals: (1) improving the performance of
    public health services and management systems, (2) improving access to and quality of primary
    healthcare services, and (3) promoting healthier behaviors and institutionalizing community
    participation in health services. This audit focuses on the project’s performance in achieving the
    second goal of improving access to and quality of healthcare services at primary health care facilities.

•   Review of USAID’s Internally Displaced Persons Program in Pakistan. The objective of
    this review is to determine the status of USAID’s Internally Displaced Persons (IDP) activities in
    Pakistan. USAID OIG is conducting this review in conjunction with the Department of State OIG’s
    review of the Department of State’s internally displaced persons program implemented by the
    Office of the United Nations High Commissioner for Refugees.

•   Audit of USAID/Pakistan’s Family Advancement for Life and Health Program. In June
    2007, USAID/Pakistan launched the 5-year, $60 million Family Advancement for Life and Health
    Program. The program aims to increase the availability of information and family planning services
    for low-income Pakistani women and operates in all four provinces of Pakistan. A nationwide social
    marketing program for contraception is also a component of the program. The program promotes
    birth spacing as an essential health intervention to reduce maternal and child mortality. It also
    promotes the use of contraceptive methods among families who want to space births. To remove
    barriers to contraceptive method use, the project works to increase community understanding of


                                                                                                          35
    the value of birth spacing for family health and well-being. The program also intends to improve
    access to quality reproductive health care in the public and private sectors. This audit will
    determine whether USAID/Pakistan’s Family Advancement for Life and Health Program is effectively
    providing access to family planning information and services.

In addition to these audit assignments, the USAID OIG has five open investigations cases for Pakistan.
OIG received credible allegations of fraud, corruption, or theft related to several USAID-funded
humanitarian assistance and infrastructure projects being implemented in the FATA and NWFP. Several
ongoing investigations are focused on allegations that commodities were purchased for inflated prices or
from non-existent vendors or that key personnel managing the subcontracting processes associated with
these projects solicited or received kickbacks from sub-contractors.

Two other noteworthy investigative initiatives are underway:

•   Collaboration with Pakistani National Accountability Bureau. In early 2010, the USAID
    OIG established a working relationship with the National Accountability Bureau (NAB), the law
    enforcement agency in Pakistan primarily responsible for investigating white collar crime and public
    corruption. The NAB is the only Pakistani law enforcement agency authorized to conduct such
    investigations in the FATA, where USAID has a significant investment. The USAID OIG held a
    series of meetings with NAB senior leadership in Islamabad as well as investigative personnel in
    Peshawar, NWFP. As a result of the meetings, the USAID OIG and NAB developed a working
    agreement on how to handle joint investigations of allegations of fraud and corruption involving
    USAID projects in Pakistan. The USAID OIG and NAB are conducting several joint investigations
    and continue to develop their working relationship.

•   Pakistan Fraud Hotline. The USAID OIG is working closely with USAID/Pakistan to establish a
    Pakistan-specific fraud hotline to be managed by a USAID implementing partner with training and
    oversight from the OIG. The USAID OIG and the USAID mission are working together to develop
    the requirements for the contract. The implementing partner selected for the project will be
    responsible for developing, advertising, and managing a fraud hotline that will be capable of receiving
    allegations in English, Urdu, Pashto, and other Pakistani languages. The OIG will work with the
    implementing partner to screen incoming allegations and ensure that they are either investigated or
    referred to the proper authorities in Pakistan. The hotline will provide the capability to report
    allegations by phone, email, fax, Web-based interface, and postal mail. The OIG will help the
    implementing partner design the hotline, provide training to hotline personnel, collect statistical data
    for regular reporting requirements, review incoming hotline allegations weekly, serve as a liaison
    with Pakistani law enforcement when allegations must be referred outside of U.S. Government
    channels, and assist the USAID mission in evaluating the work being done.

Planned Oversight

During the remainder of FY 2010, the USAID OIG expects to perform four additional performance
audits:



                                                                                                          36
•   Audit of USAID/Pakistan’s Links to Learning: Education Support to Pakistan Program.
    USAID/Pakistan is investing $170 million to fundamentally reform and revitalize basic education
    across Pakistan. On October 19, 2007, USAID/Pakistan awarded an $89.9 million cooperative
    agreement to American Institutes for Research to support basic education reform at the middle and
    secondary school system levels in Pakistan. The program seeks to improve teacher education and
    professional development, student learning, and the learning environment. Other goals are to
    improve governance and strengthen public sector capacity at the federal, provincial, and district
    levels to sustain quality teaching and learning. The performance audit will determine whether
    USAID/Pakistan’s Links to Learning: Education Support to Pakistan Program is achieving its main
    goals.

•   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Pre-STEP). The
    objective of the Pre-Service Teacher Education Program is to improve the quality of basic education
    in Pakistan by strengthening teachers’ education and skills. The program will directly benefit new
    and practicing teachers by helping them gain revised and upgraded teacher qualifications. This $75
    million, 5-year program will enable the nonprofit Education Development Center and the Pre-STEP
    team to partner with the Ministry of Education, the Higher Education Commission, selected
    universities, and the district-level colleges responsible for the training and certification of pre-service
    teachers. By providing intensive support and training in student-centered teaching practices,
    assistance with curriculum design, development and implementation of a measurable system of
    teaching standards, and appropriate incentives and accreditation policies, Pre-STEP will assist
    Pakistan in producing teachers prepared to meet the educational demands of the 21st century. This
    audit will determine whether USAID/Pakistan’s Pre-Service Teachers Education Program is helping
    teachers improve their professional qualifications.

•   Audit of USAID/Pakistan’s FATA Livelihood Development Program—Implemented by
    the Academy for Educational Development. The FATA region consists of semiautonomous
    areas along the border with Afghanistan, where the Pakistani Government has minimal control.
    These areas are frequently used by the Taliban for incursions into Afghanistan. Citizens there have
    less access to education, health care, clean water, and sanitation compared with residents in other
    regions in Pakistan. The FATA Livelihood Development Program is a community-based program
    that aims to (1) create jobs, increase incomes, and teach employable skills, (2) revitalize community
    infrastructure and essential services, and (3) support established businesses and develop sustainable
    new enterprises. USAID/Pakistan intends to provide up to $150 million over 5 years to the
    Academy for Educational Development to achieve these objectives. The OIG’s audit will assess the
    program’s effectiveness in improving livelihoods in FATA.

•   Audit of USAID/Pakistan’s FATA Livelihood Development Program—Implemented by
    the Cooperative Housing Foundation. This audit will be similar to the preceding one except
    that it will cover the portion of the program that is implemented by the Cooperative Housing
    Foundation.

In addition to these performance audits, the USAID OIG expects to perform desk reviews, quality
control reviews, or other quality control procedures for financial audits of 31 U.S.-based contractors



                                                                                                             37
and grantees implementing programs in Pakistan, as well as for 15 financial audits of grantees based in
Pakistan.

Department of State Office of Inspector General
Final Audits

During the period from October 15, 2009 through March 31, 2010, the Department of State OIG
completed two performance audits:

•   Status of the Bureau of International Narcotics and Law Enforcement Affairs
    Counternarcotics Programs in Afghanistan, Performance Audit, (Report No. MERO-A-
    10-02 dated November 18, 2009). The results of this audit are discussed on page 24.

•   The Bureau of International Narcotics and Law Enforcement Affairs Air Wing Program
    in Afghanistan and Pakistan, Performance Audit, (Report No. MERO-A-10-03 dated
    March 12, 2010). The results of this audit are discussed on page 25.

Oversight Activities Underway

The State Department OIG has one audit and one inspection engagement underway:

•   Review of Pakistan Internally Displaced Persons (Performance Audit). Purpose: To
    determine whether (1) U.S. Government and international organizations have effectively met the
    protection, food, and other assistance needs of Pakistan’s IDP populations, (2) whether the U.S.
    government has a coordinated and effectively managed program to protect and assist these persons,
    and (3) account for the flow and use of funds provided to assist the Pakistan IDP populations. This
    audit is in the field work stage.

•   Inspection of Embassy Islamabad (Pakistan). Purpose: To evaluate the Embassy’s
    implementation of policy, management of resources, adequacy of management controls, and
    measures to protect people, information and facilities. This review is the draft report stage.

In addition to these two assignments, the Office of Investigations has two open cases for Pakistan.

Planned Oversight

During the remainder of FY 2010, the State OIG expects to undertake three additional performance
audits or evaluations:

•   Review of Emergency Action Plan (EAP) of Embassies Baghdad, Kabul, and Islamabad
    (Program Evaluation). Purpose: To evaluate and assess the current status and effectiveness of
    emergency action plans for Embassies Baghdad, Kabul, and Islamabad to determine the
    reasonableness and their level of coordination and cooperation with the military commanders in-
    country.

                                                                                                        38
•   Review of Local Security Guard Program—Embassy Islamabad (Performance Audit).
    Purpose: To provide an overall review and summary of the requirements and provisions of the
    Islamabad Embassy Security Force contract; objectives of the contracts and task orders, what
    indicators have been established to measure performance; and how the Department administered
    the contract to oversee the contractor’s performance and costs of the contract. Assess the status of
    contract records, management controls, cost, and value of this contract to the mission of the US
    Department of State.

•   Review of Internal Management Controls of Funds Provided to Pakistan (Performance
    Audit). Purpose: To determine whether specific internal control procedures have been properly
    designed and put in place for the Pakistan program funds to include procedures for planning,
    organizing, directing, and controlling program operations, and the system put in place for measuring,
    reporting, and monitoring program performance.

Department of Defense Office of Inspector General
The Department of Defense OIG has one Pakistan assignment planned for the remainder of FY 2010:

•   Pakistan Security Assistance and Coalition Support Funds. Objective: In general, this
    project will assess whether security assistance and support funds are effectively managed. Additional
    research will identify specific objectives.

Government Accountability Office

GAO is an independent, nonpartisan agency that oversees federal government spending. GAO’s mission
is to help improve the performance and ensure the accountability of the federal government for the
benefit of the American people. Work completed by GAO is usually at the behest of Congress. GAO
can also be required to research issues mandated by public laws, or may undertake work based on
broad-based congressional interest under the authority of the Comptroller General. GAO supports
congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by the USAID OIG and focuses on oversight of U.S. programs in those two countries.

Work Completed Since October 15, 2009

GAO has not published any work on Pakistan since October 15, 2009. However, since 2008, GAO has
issued seven products concerning Pakistan. In 2009, GAO testified on oversight of U.S. efforts in
Pakistan, how GAO coordinates its efforts with colleagues in the accountability community, and the
challenges that GAO faces in carrying out oversight. GAO also issued a report on securing, stabilizing,
and developing Pakistan’s border area with Afghanistan as part of its efforts to assist the new Congress

                                                                                                         39
and highlight major government challenges. Both of these products drew heavily upon GAO’s past and
ongoing work in Pakistan. In 2008, GAO issued three products and testified twice before Congress
about several aspects of U.S. efforts to combat terrorism in Pakistan’s Federally Administered Tribal
Areas (FATA).

GAO has made recommendations to the National Security Advisor and the Director of the National
Counterterrorism Center relating to the development of a comprehensive plan to combat the terrorist
threat in the FATA, which remain outstanding. Additionally GAO has made recommendations to the
Department of Defense to improve accountability and oversight of coalition support fund
reimbursements to Pakistan. The Department of Defense, in implementing GAO’s recommendations,
developed additional guidance and enhanced the application of existing guidance to increase the
accountability of these funds.

Work Underway for FY 2010

GAO has three ongoing engagements addressing programs in Pakistan:

U.S. Development Efforts in Pakistan’s FATA. This engagement is assessing (a) the extent to
which U.S. development objectives align with national security goals and Pakistan’s objectives, (b) U.S.
efforts to track the pledge, (c) U.S. efforts to measure performance of programs in the FATA, and (d)
efforts to monitor activities in the FATA. Expected completion—April 2010.

Security Environment in Afghanistan and Pakistan. This engagement is assessing (a) the security
situation and U.S. stabilization efforts in Afghanistan and (b) the security situation and U.S. stabilization
efforts in Pakistan. Expected completion—April 2010.

U.S. Security Assistance to Pakistan. This engagement is assessing (a) U.S. plans and funding for
improving the counterterrorism and counterinsurgency capabilities of Pakistani forces operating in the
Western Frontier, (b) the status of specific projects and activities and the challenges associated with
implementing those efforts, and (c) the extent to which the Departments of Defense and State’s
monitoring and oversight of U.S.-funded activities provide reasonable assurance that funds are used and
activities are implemented as intended. Expected completion—July 2010.

Work Planned for the Remainder of FY 2010

In response to the Enhanced Partnership with Pakistan Act of 2009 (P.L. 111-73, Sec. 302), GAO will be
working on two Congressional Mandates during FY 2010. Specifically, GAO is tasked to assess and
report to congressional committees about the following executive branch reports to Congress:

1) The Pakistan Assistance Strategy Report, which is intended to describe U.S. policy and strategy for
   U.S. democratic, economic, and development assistance to Pakistan authorized by Title I of the Act
   ($1.5 billion for 5 years, $7.5 billion total). GAO is tasked to comment on the strategy, make
   recommendations to improve the efficiency and effectiveness of U.S. efforts, describe Pakistan’s
   expenditures under the Foreign Military Financing program, and assess the impact of U.S. assistance

                                                                                                           40
    on the security and stability of Pakistan. The Secretary of State sent the report to the Congress in
    mid-December 2009; GAO’s report is due no later than 1 year after the report is submitted.
    Expected completion—to be determined.

2) The President’s annual certification for FYs 2011 through 2014 that Pakistan is cooperating with U.S.
   nonproliferation efforts, combating terrorism and certain terrorist groups, and strengthening
   counterterrorism and anti-money laundering laws; and also that the Pakistani military is not
   materially or substantially subverting Pakistan’s political or judicial processes. However, although
   the Act requires that the certification be completed for each fiscal year before the executive branch
   can provide security assistance to Pakistan, the Act does not establish a due date. GAO’s reports
   are due no later than 120 days after the President’s certification is sent to the Congress. Expected
   completion—to be determined.

GAO may begin additional work on Pakistan based on congressional interest, which GAO will report on
in subsequent reports.




                                                                                                        41
